SEC.gov |  1995 Audit on Filing Activity Tracking System
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
1995 Audit on Filing Activity Tracking System
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
1995 Audit on Filing Activity Tracking System
Audit Report No. 213December 12, 1994
EXECUTIVE SUMMARY
We reviewed management controls over the Filing Activity Tracking System, an automated information system in the Division of Corporation Finance. We sought to determine if the controls ensured data integrity and accuracy, and if the system met user needs.
During the audit, we interviewed Division staff, reviewed available documentation, and conducted tests of a sample of FACTS entries. We also surveyed FACTS users.
We generally found that the controls were adequate, and the system met user needs. We are recommending several enhancements, however, including improving procedures to delete users who leave the Division, minimizing duplication with another information system (Workload), and putting the FACTS manual on-line.
The Division generally concurred with our findings and is taking appropriate action to implement our recommendations. The Appendix contains the Division's comments on a prior draft of this report, as well as comments from the Office of Information Technology.
To ensure staff are appropriately deleted from the FACTS users group, the Administrative Officer will now notify the system manager when staff leave the Division.
To minimize duplication between FACTS and the Workload system, the Division requested in February 1994 that the Office of Information Technology (OIT) provide a daily file from Workload to use in updating FACTS. OIT provided a staff-hour estimate, but has not started the project because of other issues (see its comments). OIT should establish a deadline for acting on the Division's request.
SCOPE AND OBJECTIVES
The primary objective of the audit was to determine if management controls for the Filing Activity Tracking System (FACTS) adequately ensured data integrity and accuracy. We also sought to determine whether the system met user needs.
During the review, we interviewed Corporation Finance staff and reviewed relevant documentation. We conducted tests of a sample of FACTS entries and surveyed users of the system.
The audit was conducted between July and October, 1994, in accordance with generally accepted government auditing standards.
BACKGROUND
The Filing Activity Tracking System (FACTS) is an automated information system used by the Division of Corporation Finance to track review activity. Through standard and customized reports, FACTS measures the performance of the branches of Corporate Analysis and Examination against workload goals. The system records the type and number of filings processed, as well as the processing time. /
FACTS was developed in 1985 by a contractor, Arthur Andersen. The system has since been rewritten and enhanced by the Division's Research and Development Branch.
AUDIT RESULTS
Generally, we found that the management controls for FACTS adequately ensured data integrity and accuracy. In addition, users told us that the system is generally useful to them.
We are recommending several enhancements, as discussed below.
Access Controls (Staff Departures)
We reviewed a sample of sixty-four FACTS users who left the Division from October 1, 1992, to August 27, 1994. Four of these users had not been deleted from the FACTS users group. Of the four, only one was still employed by the Commission.
The Office of Information Technology provides an e-mail notice to the FACTS system manager when Division staff leave the Commission. The FACTS system manager is responsible for deleting their names from the FACTS users group. However, since this notice procedure may occasionally be ineffective or not applicable, / the Division should use its own records of staff departures to ensure proper access control.
Recommendation A
The Division's Administrative Officer should provide the FACTS system manager with notification of employee departures.
Duplication with Workload System
FACTS contains certain information that is also entered into the Commission's Workload (WRKD) system, a mainframe application. This information includes the registrant's name, file number, form type, date filed, review type, and disposition code. The duplicate data is then reconciled monthly to eliminate discrepancies.
This procedure is inefficient. On February 8, 1994, the Division submitted a request on Form SF-1681 to OIT, requesting a daily, machine readable file from WRKD to use in updating the FACTS file.
OIT has not yet acted on the request because of other issues (see its comments in the Appendix). It estimated that the request would require 96 hours of programming time. A definite response to the Division (either approving or denying the request) appears appropriate.
Recommendation B
OIT should establish a deadline for acting on the Division's request, and ensure that the deadline is met.
Put FACTS Users Manual On-Line
The Division's Branch of Research and Development plans to update the FACTS users manual. An on-line version of the manual would be cheaper and easier to modify than a printed one.
Recommendation C
The Division should make the FACTS users manual available on-line to users.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us